<html>
<title> - IMPLEMENTING MAP-21: THE STATE AND LOCAL PERSPECTIVE</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



 
          IMPLEMENTING MAP-21: THE STATE AND LOCAL PERSPECTIVE

=======================================================================



                                (113-14)

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON

                          HIGHWAYS AND TRANSIT

                                 OF THE

                              COMMITTEE ON

                   TRANSPORTATION AND INFRASTRUCTURE

                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             APRIL 25, 2013

                               __________

                       Printed for the use of the
             Committee on Transportation and Infrastructure


         Available online at: http://www.gpo.gov/fdsys/browse/
        committee.action?chamber=house&committee=transportation





                  U.S. GOVERNMENT PRINTING OFFICE
80-578                    WASHINGTON : 2013
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001




             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                  BILL SHUSTER, Pennsylvania, Chairman

DON YOUNG, Alaska                    NICK J. RAHALL, II, West Virginia
THOMAS E. PETRI, Wisconsin           PETER A. DeFAZIO, Oregon
HOWARD COBLE, North Carolina         ELEANOR HOLMES NORTON, District of 
JOHN J. DUNCAN, Jr., Tennessee,      Columbia
  Vice Chair                         JERROLD NADLER, New York
JOHN L. MICA, Florida                CORRINE BROWN, Florida
FRANK A. LoBIONDO, New Jersey        EDDIE BERNICE JOHNSON, Texas
GARY G. MILLER, California           ELIJAH E. CUMMINGS, Maryland
SAM GRAVES, Missouri                 RICK LARSEN, Washington
SHELLEY MOORE CAPITO, West Virginia  MICHAEL E. CAPUANO, Massachusetts
CANDICE S. MILLER, Michigan          TIMOTHY H. BISHOP, New York
DUNCAN HUNTER, California            MICHAEL H. MICHAUD, Maine
ERIC A. ``RICK'' CRAWFORD, Arkansas  GRACE F. NAPOLITANO, California
LOU BARLETTA, Pennsylvania           DANIEL LIPINSKI, Illinois
BLAKE FARENTHOLD, Texas              TIMOTHY J. WALZ, Minnesota
LARRY BUCSHON, Indiana               STEVE COHEN, Tennessee
BOB GIBBS, Ohio                      ALBIO SIRES, New Jersey
PATRICK MEEHAN, Pennsylvania         DONNA F. EDWARDS, Maryland
RICHARD L. HANNA, New York           JOHN GARAMENDI, California
DANIEL WEBSTER, Florida              ANDRE CARSON, Indiana
STEVE SOUTHERLAND, II, Florida       JANICE HAHN, California
JEFF DENHAM, California              RICHARD M. NOLAN, Minnesota
REID J. RIBBLE, Wisconsin            ANN KIRKPATRICK, Arizona
THOMAS MASSIE, Kentucky              DINA TITUS, Nevada
STEVE DAINES, Montana                SEAN PATRICK MALONEY, New York
TOM RICE, South Carolina             ELIZABETH H. ESTY, Connecticut
MARKWAYNE MULLIN, Oklahoma           LOIS FRANKEL, Florida
ROGER WILLIAMS, Texas                CHERI BUSTOS, Illinois
TREY RADEL, Florida
MARK MEADOWS, North Carolina
SCOTT PERRY, Pennsylvania
RODNEY DAVIS, Illinois
VACANCY

                                  (ii)


                  Subcommittee on Highways and Transit

                  THOMAS E. PETRI, Wisconsin, Chairman

DON YOUNG, Alaska                    PETER A. DeFAZIO, Oregon
HOWARD COBLE, North Carolina         JERROLD NADLER, New York
JOHN J. DUNCAN, Jr., Tennessee       EDDIE BERNICE JOHNSON, Texas
JOHN L. MICA, Florida                MICHAEL E. CAPUANO, Massachusetts
FRANK A. LoBIONDO, New Jersey        MICHAEL H. MICHAUD, Maine
GARY G. MILLER, California           GRACE F. NAPOLITANO, California
SAM GRAVES, Missouri                 TIMOTHY J. WALZ, Minnesota
SHELLEY MOORE CAPITO, West Virginia  STEVE COHEN, Tennessee
DUNCAN HUNTER, California            ALBIO SIRES, New Jersey
ERIC A. ``RICK'' CRAWFORD, Arkansas  DONNA F. EDWARDS, Maryland
LOU BARLETTA, Pennsylvania           ANDRE CARSON, Indiana
BLAKE FARENTHOLD, Texas              JANICE HAHN, California
LARRY BUCSHON, Indiana               RICHARD M. NOLAN, Minnesota
BOB GIBBS, Ohio                      ANN KIRKPATRICK, Arizona
RICHARD L. HANNA, New York           DINA TITUS, Nevada
STEVE SOUTHERLAND, II, Florida       SEAN PATRICK MALONEY, New York
REID J. RIBBLE, Wisconsin, Vice      ELIZABETH H. ESTY, Connecticut
Chair                                LOIS FRANKEL, Florida
STEVE DAINES, Montana                CHERI BUSTOS, Illinois
TOM RICE, South Carolina             NICK J. RAHALL, II, West Virginia
MARKWAYNE MULLIN, Oklahoma             (Ex Officio)
ROGER WILLIAMS, Texas
SCOTT PERRY, Pennsylvania
RODNEY DAVIS, Illinois
BILL SHUSTER, Pennsylvania (Ex 
Officio)

                                 (iii)

                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................    vi

                               TESTIMONY

Michael P. Lewis, Director, Rhode Island Department of 
  Transportation, on behalf of the American Association of State 
  Highway and Transportation Officials...........................     4
Hon. Bruce Starr, State Senator, Oregon Legislative Assembly, on 
  behalf of the National Conference of State Legislatures........     4
Peter Varga, Chief Executive Officer, Interurban Transit 
  Partnership (The Rapid), on behalf of the American Public 
  Transportation Association.....................................     4
Richard Perrin, AICP, Executive Director, Genesee Transportation 
  Council, on behalf of the Association of Metropolitan Planning 
  Organizations..................................................     4
Terry Bobrowski, Executive Director, East Tennessee Development 
  District, on behalf of the National Association of Development 
  Organizations..................................................     4
Edward D. Reiskin, Director of Transportation, San Francisco 
  Municipal Transportation Agency................................     4

 PREPARED STATEMENTS AND ANSWERS TO QUESTIONS FOR THE RECORD SUBMITTED 
                              BY WITNESSES

Michael P. Lewis:

    Prepared statement...........................................    37
    Answers to questions from the following Representatives:

        Hon. Steve Daines, of Montana............................    59
        Hon. Lou Barletta, of Pennsylvania.......................    59
Hon. Bruce Starr, prepared statement.............................    63
Peter Varga, prepared statement..................................    85
Richard Perrin, AICP:

    Prepared statement...........................................    91
    Answer to question from Hon. Lou Barletta, of Pennsylvania...    97
Terry Bobrowski, prepared statement..............................   103
Edward D. Reiskin, prepared statement............................   112

                       SUBMISSIONS FOR THE RECORD

Hon. Bruce Starr, State Senator, Oregon Legislative Assembly, on 
  behalf of the National Conference of State Legislatures:

    National Conference of State Legislatures, Energy, 
      Transportation and Agriculture Standing Committee, 
      ``Surface Transportation Federalism Policy Directive''.....    72
    National Conference of State Legislatures, ``State-Federal 
      Priorities for the 113th Congress''........................    83

                         ADDITION TO THE RECORD

Elizabeth Treadway, PWLF, President, American Public Works 
  Association, prepared statement................................   118


[GRAPHIC] [TIFF OMITTED] 80578.001

[GRAPHIC] [TIFF OMITTED] 80578.002

[GRAPHIC] [TIFF OMITTED] 80578.003

[GRAPHIC] [TIFF OMITTED] 80578.004



                          IMPLEMENTING MAP-21:


                    THE STATE AND LOCAL PERSPECTIVE

                              ----------                              


                        THURSDAY, APRIL 25, 2013

                  House of Representatives,
              Subcommittee on Highways and Transit,
            Committee on Transportation and Infrastructure,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10:00 a.m. in 
Room 2167, Rayburn House Office Building, Hon. Thomas E. Petri 
(Chairman of the subcommittee) presiding.
    Mr. Petri. The subcommittee will come to order. Today's 
hearing is the second in a series of oversight hearings on the 
U.S. Department of Transportation's implementation of the 
Moving Ahead for Progress in the 21st Century Act, better known 
as MAP-21.
    Signed into law by the President last July, MAP-21 
authorizes the Federal highway, transit and highway safety 
programs through September 30, 2014. These programs are 
administered by the U.S. Department of Transportation, in 
partnership with States, localities, and public transit 
agencies. And while the Department of Transportation provides 
financial and technical assistance, these partners are 
responsible for carrying out these programs on a day-to-day 
basis. So today we will hear their perspective on Department of 
Transportation's implementation effort.
    Before we begin, let me briefly highlight some of the 
reforms that were included in MAP-21. We consolidated or 
eliminated more than 70 Federal programs. These changes allow 
for a greater focus on national transportation goals and 
priorities, while giving our partners greater flexibility to 
meet their transportation needs. States, localities, and 
transit agencies are now required to establish performance 
targets and incorporate them into their transportation plans 
and project selection. These performance targets will help 
focus limited Federal resources on projects that have the 
greatest benefits. It will also help ensure that American 
taxpayers get the most bang for their buck.
    Currently, it can take almost 14 years for a transportation 
project to be completed if Federal funding is involved. This is 
simply unacceptable. MAP-21 made major reforms and improvements 
to the project delivery process. Some of the reforms include 
allowing Federal agencies to review projects concurrently, 
penalties for agencies that don't meet project review 
deadlines, and expanded categorical exclusions for projects in 
the existing right-of-way or with limited Federal investment. 
By cutting the bureaucratic red-tape, we will realize the 
economic and safety benefits of these projects much sooner.
    MAP-21 increased funding for the Transportation 
Infrastructure Finance and Innovation Act programs, or TIFIA, 
from $122 million a year to approximately $1 billion a year. 
This increase in funding, combined with a change in law to 
allow a TIFIA loan to account for 49 percent of a project's 
cost, will allow the U.S. Department of Transportation to issue 
about $35 billion in loans over the next 2 years. State 
governments, local governments, toll authorities, public 
transit agencies, and public-private partnerships are eligible 
to apply for these loans.
    Previously, transit agencies had to work through FEMA to 
replace equipment or rebuild their systems after a disaster. 
After Hurricane Katrina, transit agencies sought an emergency 
program similar to the Emergency Relief program run by the 
Federal Highway Administration. MAP-21 created a new program 
that provides relief for public transportation systems that are 
affected by a natural disaster or a catastrophic failure. This 
program is already being utilized by the States and transit 
agencies impacted by Hurricane Sandy.
    Congress also recognized that new highway safety challenges 
have emerged. MAP-21 requires the National Highway Traffic 
Safety Administration to implement a national priority safety 
program that incentivizes States to pass and enforce laws that 
address important safety issues. The program focuses on 
impaired driving countermeasures, occupant protection, 
motorcycle safety, distracted driving, and graduated drivers 
licensing. These reforms are only part of the sweeping policy 
and programmatic changes made in MAP-21.
    Today's hearing will allow representatives from State 
departments of transportation, State legislatures, transit 
operators, transportation planning agencies, and local 
governments to provide their views on how MAP-21 is being 
implemented. And I look forward to hearing from our witnesses.
    But before that, I would turn the podium over to our senior 
leader on the Democratic side, Mr. DeFazio, for any statement 
he might like to make.
    Mr. DeFazio. Thank you, Mr. Chairman. Mr. Chairman, I look 
forward to hearing the perspective of local and State 
jurisdictions regarding the Federal transportation policy.
    And though MAP-21, of course, is not fully implemented yet, 
we want to hear what is working, what isn't working, what they 
are anticipating, but this is also part of an evolution during 
my entire tenure during the committee, as we have given more 
discretion to the States, we have attempted to streamline the 
environmental restrictions on projects, and I want to hear 
about all those things.
    But I am also going to be asking specifically for the 
witnesses to tell us what the impact of a 98-percent reduction 
in Federal aid to transit and highways will mean in fiscal year 
2015. The Ryan budget assumes that we will go from $50 billion 
of expenditures to $100 million of expenditures. And I am going 
to ask each of you to discuss what a 98-percent reduction in 
Federal funding would mean to your jurisdiction. Thank you, Mr. 
Chairman.
    Mr. Petri. Thank you. And I would ask unanimous consent 
that our witnesses' full statements be included in the record.
    [No response.]
    Mr. Petri. And without objection, so ordered. And, as you 
know, when you do make remarks, we would invite you to do your 
best to summarize them in approximately 5 minutes. The full 
statements are a part of the record.
    I now turn to our colleague, Jimmy Duncan, from Knoxville, 
Tennessee, to introduce one of the witnesses.
    Mr. Duncan. Well, thank you, Mr. Chairman, and I will 
follow the rules about limiting the opening statements to the 
chairman and ranking member. But, of course, I am very much 
interested in this subject, because I did chair this 
subcommittee during the last Congress, when MAP-21 was written, 
and so this is a very important hearing.
    But I wanted to welcome one of my bosses, one of my 
constituents, and a neighbor, and a friend, Mr. Terry 
Bobrowski, who has been the executive director of the East 
Tennessee Development District since 2002. And he has had a lot 
of challenges that he has had to deal with because our little 
part of east Tennessee is one of the fastest-growing places in 
the country. And so I want to welcome him. And I look forward 
to hearing his testimony. He is one of the most respected 
citizens in our area, and I am pleased that you have allowed 
him to be on the panel here today representing his national 
association. Thank you very much.
    Mr. Petri. Thank you. And he is joined by Mr. Michael P. 
Lewis, who is the director of the Rhode Island Department of 
Transportation, who is appearing on behalf of the American 
Association of State Highway and Transportation Officials; by 
the Honorable Bruce Starr, a State senator from Oregon on 
behalf of the National Conference of State Legislatures; Mr. 
Peter Varga, chief executive officer, Interurban Transit 
Partnership, which is known as The Rapid, on behalf of the 
American Public Transportation Association; Mr. Richard Perrin, 
executive director of the Genesee Transportation Council on 
behalf of the Association of Metropolitan Planning 
Organizations; Mr. Terry Bobrowski, executive director, East 
Tennessee Development District, on behalf of the National 
Association of Development Organizations; and Mr. Edward D. 
Reiskin, who is the director of transportation, San Francisco 
Municipal Transportation Agency.
    Welcome to all of you, and we--I guess I would like to 
invite Mr. Lewis to open things up.

     TESTIMONY OF MICHAEL P. LEWIS, DIRECTOR, RHODE ISLAND 
    DEPARTMENT OF TRANSPORTATION, ON BEHALF OF THE AMERICAN 
ASSOCIATION OF STATE HIGHWAY AND TRANSPORTATION OFFICIALS; HON. 
  BRUCE STARR, STATE SENATOR, OREGON LEGISLATIVE ASSEMBLY, ON 
BEHALF OF THE NATIONAL CONFERENCE OF STATE LEGISLATURES; PETER 
VARGA, CHIEF EXECUTIVE OFFICER, INTERURBAN TRANSIT PARTNERSHIP 
 (THE RAPID), ON BEHALF OF THE AMERICAN PUBLIC TRANSPORTATION 
ASSOCIATION; RICHARD PERRIN, AICP, EXECUTIVE DIRECTOR, GENESEE 
    TRANSPORTATION COUNCIL, ON BEHALF OF THE ASSOCIATION OF 
METROPOLITAN PLANNING ORGANIZATIONS; TERRY BOBROWSKI, EXECUTIVE 
DIRECTOR, EAST TENNESSEE DEVELOPMENT DISTRICT, ON BEHALF OF THE 
 NATIONAL ASSOCIATION OF DEVELOPMENT ORGANIZATIONS; AND EDWARD 
D. REISKIN, DIRECTOR OF TRANSPORTATION, SAN FRANCISCO MUNICIPAL 
                     TRANSPORTATION AGENCY

    Mr. Lewis. Good morning, Mr. Chairman. Chairman Petri, 
Ranking Member DeFazio, and distinguished members of the 
subcommittee, I am Mike Lewis, director of the Rhode Island 
Department of Transportation, and president of the American 
Association of State Highway and Transportation Officials. 
Thank you for the opportunity on behalf of AASHTO and the State 
DOTs to share our views on MAP-21's implementation.
    Before I start I must express our gratitude to all of you 
on the T&I committee for the role--your role last year in 
enacting a bipartisan surface transportation bill with its 
transformative policy and program reforms.
    With regard to MAP-21 implementation, I will summarize 
three points for you. First, full implementation of MAP-21's 
significant reforms will require sufficient time to be 
completed in a way that accurately reflects the direction 
envisioned by Congress. Therefore, we urge you to allow this 
implementation to take its course before contemplating major 
changes. In short, we need time to put the reforms in place and 
have them work as envisioned.
    Second, while it is early in MAP-21's implementation, at 
this point we are pleased with the collaboration with the U.S. 
DOT. States, transit agencies, and local governments own, 
construct, maintain, operate, and manage the Nation's highway 
and transit systems. Our unique collaboration with U.S. DOT as 
partners is absolutely essential in delivering a safe, 
economic, and environmentally sound surface transportation 
system.
    Third, we are pleased with the progress being made in 
implementing MAP-21, and are optimistic that the flexibilities 
delegated to the States, and the reforms envisioned by the 
drafters of MAP-21 will be appropriately reflected in future 
regulations and guidance. As we support and applaud these 
reforms, we urge you to maintain these reforms in the next 
surface transportation reauthorization bill.
    And now we would like to elaborate on three of the key 
reforms of MAP-21: accelerated project delivery, performance 
measurement, and freight.
    Obstacles in the environmental review and contracting 
processes have been a major contributor to project delay. We 
made progress in accelerating project delivery with provisions 
in SAFETEA-LU. And much more progress will be made as a result 
of MAP-21's reforms. These reforms will shave months off the 
simplest routine projects, and years off of major projects, 
without compromising environmental protection or opportunities 
for public participation. This will translate into real 
savings, savings in project costs, productivity, and lives 
saved, while still preserving and enhancing the environment.
    We urge you to encourage U.S. DOT to give priority to 
implementing MAP-21's streamlining provisions in order to 
expedite the economic, social, and environmental benefits that 
will come from improving our transportation system.
    Performance measurement is another cornerstone of MAP-21's 
policy reforms, which we fully support. State DOTs have a 
strong history of developing and using performance measures to 
report to the public, improve operations, and plan better 
projects. For the last decade, many State DOTs have implemented 
comprehensive and robust performance management systems to 
balance investment decisions against resource limitations. 
State leaders in performance management, including Michigan, 
Missouri, and Washington State, have well-known performance 
management programs that have been producing proven results for 
many years, and have become role models for other States, like 
Rhode Island.
    As responsible owners, managers, and operators of the 
highway and transit system, State DOTs, with their transit 
agency and MPO partners, are ready, willing, and able to bring 
greater accountability and transparency to the surface 
transportation programs. AASHTO urges U.S. DOT to focus on a 
set of meaningful and credible national performance measures to 
be implemented through an iterative process that allows time 
for experimentation and innovation without the unintended 
consequences of penalties.
    MAP-21's focus on freight is significant. Transportation is 
an essential link to the economy, and the fundamental role of 
the Federal Government is no clearer than in the need for 
efficient and effective freight movement that improves 
interstate commerce. We applaud your recognition of that fact, 
and further commend Chairman Shuster for establishing the 
special Panel on 21st-Century Freight Transportation to examine 
the current state of our freight system and how freight 
transportation can strengthen our Nation's economy.
    MAP-21's freight provisions begin to put in place the 
central components to more systematically and effectively 
address freight transportation needs. As owners and operators 
of the highway system over which 70 percent of the domestic 
freight tonnage travels, State DOTs understand the economic 
imperative of addressing freight transportation. AASHTO urges 
the U.S. DOT to extend this collaboration to include State DOT 
representation on the National Freight Advisory Committee.
    Finally, Mr. Chairman, I must end by commending this 
committee for its leadership and commitment to consider the 
long-term sustainability of the Highway Trust Fund. The reforms 
to the Federal Surface Transportation Program provided in MAP-
21 will take years to implement, and they will be for naught if 
Congress does not address the long-term stability of the 
Federal surface transportation program. We stand ready to 
support you in your efforts to address this fundamental 
challenge.
    Mr. Chairman and members of the committee, thank you for 
this opportunity to testify. I look forward to answering any 
questions you may have.
    Mr. Petri. Thank you.
    Senator Starr?
    Mr. Starr. Chairman Petri, Ranking Member DeFazio, and 
distinguished members of the subcommittee, I am Bruce Starr, 
president-elect of the National Conference of State 
Legislatures, and a member of the Oregon Senate. I am here 
today on behalf of NCSL, a bipartisan organization representing 
the 50 State legislatures, and the legislatures of our Nation's 
commonwealths, territories, possessions, and the District of 
Columbia. Thank you for the opportunity to testify on the 
implementation of MAP-21, and thank you, Mr. Chairman, for your 
leadership on this issue.
    I would also like to applaud Congress for its approval of 
MAP-21, which put an end to the numerous short-term extensions 
and uncertainty regarding the availability of funding for 
surface transportation. Let me begin by saying that NCSL 
supports the continuation and preservation of the Federal aid 
surface transportation program that directs spending to 
national priorities while allowing for State and insular area 
flexibility in local and regional variations. NCSL maintains 
its strong support for infrastructure programs and will 
continue to work to ensure that all funding and financial 
options remain available to States to continue to economic 
benefits that infrastructure programs provide.
    To illustrate how State legislatures currently view the 
implementation of MAP-21, my testimony today will focus on a 
few key areas including the development of Federal performance 
measures, program consolidation, and the expansion of the 
Transportation Infrastructure Financing and Innovation Act, 
commonly referred to as TIFIA.
    In addition to my written testimony--in addition, my 
written testimony addresses project streamlining, the new 
safety incentive grants, and the NCSL's engaging with U.S. DOT 
as it relates to the implementation of MAP-21. Mr. Chairman, I 
respectfully request that the copy of the NCSL's ``Surface 
Transportation Federalism Policy Directive'' and NCSL's 
``State-Federal Priorities for the 113th Congress'' be 
submitted for the record to accompany my testimony.
    Mr. Petri. Without objection, it is included as part of the 
record.
    [These documents immediately follow Mr. Starr's prepared 
statement.]
    Mr. Starr. Thank you. One of the largest transformations 
within MAP-21 was the shift to a more performance-based program 
to ensure that investments are correctly targeted, as well as 
to increase the accountability and transparency of these 
investments. NCSL encourages the Federal Government to 
establish a cooperative process through which performance 
measures can be crafted.
    NCSL also urges the U.S. DOT to both recognize and build on 
the extensive work States have done in the area to avoid 
creating additional reporting mandates or implementing lowest 
common denominator performance measures that run counter to 
good asset management practices. I am proud to report that 
Oregon was recognized by the Pew Center as one of five States 
with a performance management system that received top marks in 
six areas.
    MAP-21 also featured a significant restructuring of the 
transportation programs into a smaller set of core programs 
with the intention that the new structure would provide States 
and other grantees additional flexibility to deliver projects 
more efficiently. NCSL supports this enhanced flexibility in 
order to meet national goals, and urges its continuation in any 
reauthorization. Again, in my home State of Oregon we are 
mirroring these consolidations made in MAP-21 using the 
flexibility it provides to break down the programmatic silos 
and consolidate programs. These changes allow us to work with 
stakeholders, make it easier for users to acquire funding 
without having to submit multiple grant applications.
    One program in particular for MAP-21 that I would like to 
discuss is the TIFIA program. With the expansion of the TIFIA, 
States will be able to finance and complete major projects of 
national and regional significance. NCSL is very supportive of 
this kind of expansion of credit-based loan guarantee programs 
to incentivize private-sector investment.
    In Oregon, we are working with Washington State to seek a 
TIFIA loan of approximately $1 billion to construct the I-5 
Columbia River crossing project, a bi-state, multimodal 
megaproject that will address one of the worst bottlenecks in 
the Nation's highway system. The favorable financing terms 
provided by TIFIA are expected to provide about $200 million 
more than if the State were to bond toll revenues, making the 
project more financially feasible.
    Finally, I would like to address--quickly address--what I 
believe to be the largest issue facing the States and our 
Nation: How MAP-21, which expires in less than a year-and-a-
half, can help lay the foundation for the next long-term 
surface transportation bill. NCSL believes that the next 
reauthorization should provide for a more sustainable, long-
term funding mechanism for surface transportation. As State 
legislatures have the responsibility for State budgets, policy 
planning, and oversight activities, we stand ready to work with 
Congress and this subcommittee as it develops the successor to 
MAP-21.
    Mr. Chairman, I thank you for this opportunity to testify 
before the subcommittee. I look forward to the questions from 
members of the committee. Thank you.
    Mr. Petri. Thank you.
    Mr. Varga?
    Mr. Varga. Thank you. Chairman Petri, Ranking Member 
DeFazio, and members of the subcommittee, thank you for the 
opportunity to testify today on implementation of MAP-21. I am 
Peter Varga, chief executive officer of The Rapid, the public 
transportation agency that serves riders in and around Grand 
Rapids, Michigan.
    Today I testify on behalf of public transportation systems 
across the country, as I am also the vice chair of the American 
Public Transportation Association, or APTA. It is an honor to 
testify before this committee, and I commend you for soliciting 
industry input on how the new law is being implemented.
    While we recognize the enormous task facing the Department 
of Transportation in implementing the major changes made in 
this 2-year bill, we ask the FTA to resist a one-size-fits-all 
approach, and to ensure that new requirements on transit 
agencies are scalable on agency size, resources, and 
operational complexity.
    There is much to laud in the Department's MAP-21 outreach 
and implementation efforts to date. The FTA wisely included 
extensive early guidance in its fiscal year 2013 apportionment 
notice. FTA staff have held webinars and listening sessions, 
and conducted several online national dialogues on major MAP-21 
provisions. The FTA has actively participated in many of APTA's 
recent meetings to share information and solicit input from the 
industry.
    Moving forward, we strongly urge DOT to follow all public 
notice and comment procedures for rulemakings and guidance, so 
all stakeholders have an opportunity to be heard.
    Federal Safety Authority. MAP-21 grants the FTA significant 
new safety authority, directing the agency to create a national 
safety plan and minimum safety performance standards for public 
transportation systems. The Department has established the 
TRACS committee to advise in this effort. APTA members remain 
concerned that industry engagement in this expansive new 
oversight program beyond the participants in TRACS has been 
limited.
    APTA, through an historic partnership with the FTA, has led 
efforts to develop consensus-based industry operating and 
equipment safety standards, and has administered both rail and 
bus safety management audits for many years. FTA should not 
abandon this partnership or the progress made in this effort, 
and should make full use of APTA's expertise.
    Transit asset management, state of good repair. Increasing 
the reliability and performance of our transit systems is one 
of APTA's most fundamental goals. FTA must encourage common 
asset management principles, flexible enough to accommodate a 
broad range of transit asset management plans, from 
sophisticated practices already functioning well at some 
agencies, to more general approaches suitable for smaller 
systems just forming their plans.
    Underpinning any asset management plan is the ultimate goal 
of bringing assets into a state of good repair. We commend FTA 
for recognizing that transit systems continue to be safe, while 
working to bring their assets into a state of good repair. We 
are encouraged by FTA outreach via informal listening sessions 
and online national dialogues on these topics. Yet we still 
await critical rulemakings and guidance on transit asset 
management plans, the definition of state of good repair and 
performance-based planning.
    Capital investment grant program--New Starts. Building on a 
rulemaking underway when MAP-21 was enacted, the FTA has 
already revised the New Starts program to reflect some of the 
law's changes, including simplifying the project development 
process and revising rating and evaluation criteria. While 
moving quickly on these revisions, the FTA sought significant 
public input, including hosting a New Starts listening session 
at APTA's annual meeting last October.
    We strongly support FTA's move toward simplified measures. 
However, we are concerned that some of the approaches for 
evaluating projects did not adequately account for the 
substantial differences among the wide breadth of projects 
seeking grants, particularly the difference between Small 
Starts and larger projects.
    Environmental streamlining. We applaud FTA's continuing 
efforts to reform the NEPA process for transit and highway 
projects. Streamlining project approval and delivery will 
accelerate projects, reduce regulatory burdens and costs, all 
without compromising necessary environmental safeguards.
    In conclusion, we commend the FTA for revamping its 
triennial review program. The agency has developed a more 
targeted review strategy, focused on preventing problems before 
they occur. We are encouraged by this new streamlined approach. 
MAP-21 includes numerous important reforms long sought by the 
transit industry and we are eager to see them fully 
implemented.
    A healthy opportunity for public involvement in 
implementing these changes will produce stronger rules that 
could be implemented more effectively. These changes take place 
in an environment of constrained funding, so we ask that the 
FTA provide discretion to transit agencies as they work to 
expand service to meet ever-growing ridership demands to 
modernize our aging systems and to sustain public 
transportation's enviable safety record.
    Thank you for the opportunity to testify today. I would be 
pleased to answer any questions you may have.
    Mr. Petri. Thank you.
    Mr. Perrin?
    Mr. Perrin. Chairman Petri, Ranking Member DeFazio, and 
distinguished members of the subcommittee, thank you for the 
opportunity to provide input on the implementation of MAP-21 on 
behalf of the Association of Metropolitan Planning 
Organizations, AMPO. My name is Richard Perrin, I am the 
executive director of the Genesee Transportation Council, the 
MPO for the Genesee Finger Lakes region, which includes 
Rochester, New York. And I currently serve as the vice 
president of AMPO.
    AMPO serves the needs and interests of the approximately 
400 MPOs that currently exist, nationwide. More than 85 percent 
of Americans live in metropolitan areas, and these regions 
drive the Nation's economy and compete head-to-head with 
economies across the globe.
    While the implementation of many of the elements contained 
in MAP-21 is being advanced through the required rulemaking 
processes, one of the primary reforms has already taken place: 
the restructuring of core highway formula programs. As you are 
aware, MAP-21 places an increased emphasis on the National 
Highway System. The fiscal year 2013 Federal Aid Highway 
Program apportionments, the first to be made under MAP-21, 
increased the amount of required Federal investment on the 
National Highway System by 50 percent from the previous year. 
National Highway System facilities carry approximately 50 
percent of vehicle miles traveled. Clearly, their importance is 
recognized by the agencies that own, maintain, and operate 
them.
    In 2011, only 5 percent of bridges on the National Highway 
System were classified as structurally deficient, compared to 
13 percent of bridges carrying non-National Highway System 
facilities. Given that the level of funding to the Federal Aid 
Highway Program has remained flat, there should be a mechanism 
for metropolitan areas to be able to make a direct request to 
FHWA for a streamlined transfer of National Highway Performance 
Program funds to other programs, namely the Surface 
Transportation Program, provided that the requirements for the 
interstate system and National Highway System bridges have been 
met and can be maintained in the metropolitan area of the MPO 
making the request.
    While there is a clear national interest in a well-
maintained, highly functional National Highway System, there is 
also a clear national interest in ensuring that limited Federal 
transportation funds can be invested where needed, regardless 
of mode or ownership of infrastructure. Even a flawless 
National Highway System can only see its benefit maximized if 
persons and freight can make their way to it via the roads and 
bridges that connect to it, many of which are owned by local 
governments.
    The transition to performance and outcome-based planning 
and programming is probably the single most needed change that 
MAP-21 delivers. The increase in accountability and 
transparency provided by the reporting of system performance, 
coupled with requirements to make progress towards associated 
goals, should improve the level of trust among the public and 
businesses that the revenue they provide is being put to the 
highest and best use.
    Further, effectively communicating both achievements and 
additional needs may allow for a more constructive public 
discourse on additional funding for transportation.
    Most importantly, meeting the performance management 
requirements of MAP-21 will be dependent on MPOs and other 
agencies being able to conduct these processes in a cost-
effective manner. With that said, a Federal approach to setting 
performance targets must not be prescriptive. AMPO recommends 
that the measures and targets not be overly rigid, but instead 
allow for selection in a manner that is responsive to statewide 
and regional priorities. Certain measures and targets are not 
in the purview of MPOs. The final rule on this matter should 
clearly define how agencies, measures, and targets should be 
integrated into the metropolitan planning process.
    In terms of freight, the competitiveness of American 
manufacturers, including agricultural operations, is dependent 
on a safe, reliable, and efficient network for moving goods at 
all stages of production. AMPO supports the designation of a 
national freight network and the associated goals Congress 
included in MAP-21. This will facilitate a national investment 
strategy in multimodal facilities critical to transnational and 
interregional movement of freight.
    AMPO appreciates the transit community's concerns on the 
need for greater coordination between all modes, and AMPO 
agrees that MPOs should take into account the views of public 
transportation providers in planning and project selection 
decisions.
    The relevant provisions of MAP-21 were written broadly to 
allow for maximum flexibility and implementation. We request 
that U.S. DOT maintain the same intent when promulgating 
regulations or guidance. This is crucial to ensuring that 
unintended consequences which could reduce the quality of 
transit representation that exists today are avoided to the 
maximum extent practicable.
    In conclusion, we are all in this together. The impacts, 
positive and negative, of transportation do not begin nor end 
at the boundaries of metropolitan and rural areas or States. 
MPOs, Federal agencies, State departments of transportation, 
public transportation operators, regional transportation 
planning organizations, and private freight-related interests 
have a shared responsibility to the public and each other to 
work cooperatively in the interests of this great Nation under 
the direction provided by Congress. MPOs stand ready to go 
above and beyond to ensure the continued economic and social 
vitality of all areas.
    Again, thank you for the opportunity to provide testimony 
on the vital work undertaken by this subcommittee. Thank you.
    Mr. Petri. Thank you.
    Mr. Bobrowski?
    Mr. Bobrowski. Thank you, Chairman Petri, Ranking Member 
DeFazio, and members of the subcommittee, for the opportunity 
to comment on the implementation of Moving Ahead for Progress 
in the 21st Century, or MAP-21. I would also like to recognize 
Congressman Duncan, from my home State of Tennessee, and thank 
him for his kind words. My name is Terry Bobrowski, I am the 
executive director of the East Tennessee Development District, 
headquartered in Aloca, Tennessee. The East Tennessee 
Development District is a voluntary association of municipal 
and county governments that are located in the Mideast region 
of Tennessee.
    I also serve as the treasurer of the National Association 
of Development Organizations, NADO. NADO's 520 public-based 
regional development organizations promote regional strategies, 
partnerships, and solutions to strengthen the economic 
competitiveness and quality of life across America's local 
communities. NADO members worked closely with this committee 
during the formulation of MAP-21. As the subcommittee continues 
to monitor the implementation of MAP-21, NADO would like to 
highlight the following three issues.
    First, Mr. Chairman, NADO is very pleased that MAP-21, for 
the first time, provides Federal recognition of rural 
transportation planning organizations for areas outside the 
boundaries of metropolitan planning organizations. Under MAP-
21, States may establish and designate RTPOs to participate in 
the development and implementation of statewide, long-range 
transportation plans, along with the State transportation 
improvement program. Currently, 30 States have established some 
type of RTPO.
    As MAP-21 is implemented, NADO recommends that U.S. DOT not 
prescribe a single approach regarding the structure and duties 
of RTPOs, and instead provide flexibility so that the existing 
national network of regional transportation planning agencies 
does not have to undergo a complicated restructuring process.
    The formal involvement of rural and nonmetropolitan local 
officials in the transportation process provides a vital link 
to local economic and land-development planning. MAP-21 
requires States to develop a consultative process with 
nonmetropolitan local officials that is separate and discreet 
from the public involvement process. MAP-21 also allows the 
secretary to comment on the nonmetropolitan local official 
consultation process developed by the States. NADO members look 
forward to working with our State DOT partners to implement 
these provisions and recommend the U.S. DOT ensure the 
consultation process is both collaborative and meaningful.
    A second issue NADO is closely watching during the 
implementation of MAP-21 relates to the use of performance 
measures, the changes in MAP-21 related to the development of 
national performance measures goals and targets will transform 
the way in which transportation investment decisions are made 
in the future.
    While there are no specific roles for RTPOs and the 
performance measurement process established in MAP-21, RTPOs 
could be valuable partners with State DOTs in the development 
of statewide performance targets. In many States, rural and 
nonmetropolitan planning organizations already have been a part 
of this process.
    NADO is monitoring the new performance measurement process 
established through MAP-21, and the extent to which RTPOs are 
called upon to assist with the development of statewide 
performance targets.
    And finally, a third issue we would like to highlight 
relates to the implementation of the freight provisions of MAP-
21. MAP-21 requires the Secretary to consult with State DOTs 
and other public and private stakeholders in the development of 
the National Freight Strategic Plan. NADO recommends U.S. DOT 
ensure the participation and input of rural and nonmetropolitan 
local officials when developing the National Freight Strategic 
Plan.
    In addition, MAP-21 requires the Secretary to identify a 
primary freight network and critical rural freight corridors. 
MAP-21 limits the national freight network to no more than 
30,000 center-line miles. It is possible that this mileage 
limitation may prevent the inclusion of important urban and 
rural roads as part of the network. Therefore, NADO would ask 
the committee to examine the limitation of 30,000 center-line 
miles in order to determine if the number of network miles 
should be expanded to adequately address all of the critical 
metropolitan and nonmetropolitan freight routes.
    In closing, Mr. Chairman, we support efforts to strengthen 
the coordination of Federal surface transportation investments 
and plans more closely, with regional, local community, and 
economic development strategies, with a special emphasis on the 
utilization of the RTPO model.
    Thank you again, Mr. Chairman and members of the 
subcommittee, for the opportunity to appear before you today. I 
would be pleased to answer any questions.
    Mr. Petri. And thank you.
    Mr. Reiskin?
    Mr. Reiskin. Good morning, Mr. Chairman, Ranking Member 
DeFazio, members of the subcommittee. Thank you again for the 
opportunity to provide the local perspective on MAP-21. There 
are goals that MAP-21 embodies, in terms of enhanced safety, 
strengthening infrastructure, and streamlining programs that we 
share at the local level. My name is Ed Reiskin, I am the 
director of transportation in San Francisco. I also serve as 
the vice president of the National Association of City 
Transportation Officials, which is a coalition of cities 
working together to strengthen transportation in our cities and 
metropolitan areas.
    The cities and metropolitan areas of this country are a big 
part of what drives the national economy. And, therefore, it is 
important for us to be able to have people access jobs and have 
mobility, and, therefore, have strong transportation systems.
    My agency, the San Francisco MTA, is a somewhat unique, 
integrated transportation agency. We serve as the city's 
transportation department, the main transit provider, and the 
regulator of the taxi system. So that integration of functions, 
of transportation functions, allows us to serve what is the 
most densely populated city west of the Mississippi, or in the 
western part of the United States, in ways that allow people to 
get around the city on transit, on bikes, on their feet, in 
taxis, and car-share vehicles, and other alternative forms of 
transportation to keep our streets relatively free of 
congestion and our air relatively free of pollution.
    We operate MUNI, which is the seventh largest transit 
system in the country, with--carrying more than 200 million 
people each year, and we maintain all the other transportation 
assets in the city, which include more than 1,000 transit 
vehicles, more than 1,200 traffic signals, 28,000 parking 
meters, 40 off-street parking facilities. And I make the point 
of listing these assets to give a sense of what it takes to 
manage transportation in our cities. It takes a lot of assets, 
transportation assets, to keep a city moving. Keeping a city 
moving is core to driving the economy of our cities and our 
metropolitan areas. And it takes investments to keep these 
systems strong and healthy.
    The local governments have stepped up in investing in these 
transportation assets. A number of California counties, 
including San Francisco, have enacted sales taxes dedicated to 
transportation. There are other dedicated revenues the local 
governments and local residents are providing, which not only 
support transportation in our cities, but help match the 
Federal funds that come through programs funded by MAP-21. So 
it is a good local partnership, local and Federal partnership.
    We applaud the leadership of Congress and the 
administration in bringing forward the bipartisan MAP-21. The 
focuses on state of good repair, performance management, and 
safety are, we think, very important to the Nation's 
transportation system. State of good repair is a significant 
challenge nationally and in San Francisco. At a national level, 
the mass transit account funds a level of state of good repair 
that is significantly less than the need requires.
    Down at the local level we have a similar situation. We 
need about $500 million a year in San Francisco to bring all of 
our assets into a state of good repair and maintain them as 
such. We have less than half of that in our capital budget, 
less than $250 million. And it is about $75 million that we get 
annually from the Federal formulas.
    We are--as I mentioned, we have a sales tax. We are issuing 
revenue bonds and securing other grants to help fill the gap. 
But what we can do at the local level will not be adequate to 
meet all of the needs.
    MAP-21 does provide, I think, a great framework for us, 
going forward, over the next number of years. The capital 
investment program, New Starts, the fact that it has been 
streamlined is excellent. We have recently received a full-
funding grant agreement so we participated under the old 
process, so I can speak for the fact that a streamlined process 
will be much welcomed. But the funding for New Starts and the 
core capacity, with their general fund source and the impacts 
of things such as sequestration, make it challenging to plan 
for and deliver capital projects.
    I will end by saying that investing in infrastructure, 
transportation infrastructure, has dual benefits. Immediately 
it creates jobs that will help bring the country out of the 
economic recession and, in the long term, the transportation 
infrastructure is really key to the economy of the Nation. So 
the city and county of San Francisco, NACTO cities, and transit 
agencies across the country look forward to working with this 
subcommittee and Congress and the administration to bring 
forward adequate and sustainable funding for transportation. 
And I thank you very much for the opportunity, and look forward 
to answering any questions.
    Mr. Petri. Thank you. Thank you all. And thank the folks at 
your associations, those who worked on your statements, and we 
appreciate the specificity, in many cases, of your remarks and 
helpful nature of the comments you have made.
    I have a question for the entire panel, and I think, as you 
are quite familiar with the program and how it is structured 
and all, you know that we need to do a major long-term 
reauthorization, which is certainly our goal and is what we 
need, as a country, to have an efficient, adequate framework 
for marshaling resources for investment and maintaining our 
transportation infrastructure, and currently the trust fund is 
projected to only cover roughly 60 percent of the program, if 
it were maintained at the current level.
    Do you or your organizations have any suggestions as to how 
we address that problem? The chairman said all options are on 
the table. We have been getting advice from trucking 
organizations and from National Chamber of Commerce, and other 
user-fee States are beginning to wrestle with this because it 
is a problem, it is a Federal-State partnership. And I don't 
think we can avoid this issue if we are really going to deal 
with a serious reauthorization.
    Have any of your organizations taken any positions, or do 
you or your organizations have any suggestions as to where we 
should look or what we should do about solving this problem?
    Mr. Lewis. Mr. Chairman, Mike Lewis from AASHTO.
    I think that is the issue of the day, and I think we at 
AASHTO and across the States want to work with the committee 
and our partners in transportation to come up with possible 
solutions to this challenge. We know it is not easy, we know 
there are a lot of other demands placed on you and on the 
country.
    We do feel, however--and I think all of us feel--how 
important the transportation infrastructure is to the economic 
health of the country. And there are a finite number of options 
for addressing the revenue needs.
    We also all recognize that we continue to need to be as 
efficient as we can with the resources that we have. And we 
recognize it is not just a Federal issue, it is a State and 
local issue, as well. And I think the solution is going to come 
from a combination of all of those factors. But we stand ready 
to work with you, work with the committee on developing options 
for the future.
    Mr. Starr. Thank you, Mr. Chairman. Happy to address that 
question. In previous policy, we had supported an increase in 
the Federal fuel tax. In our existing policy today, we don't 
specifically identify a funding source. It is clear, though, 
that the options available are limited. And your partners at 
the State level, State legislative level, will partner with you 
and work with you to address these issues.
    I would just comment that State legislatures across the 
country are addressing this issue, head on. We have legislators 
that are increasing their State fuel tax to address the issue. 
We have legislators that are going toward a sales tax on fuel 
as a source of funding.
    And I would also just like to highlight some of the things 
that we are doing in Oregon to address this in the long term. 
We have undertaken two pilot programs studying the road user 
tax, or road user charge, to charge folks based on how many 
miles they would drive, as opposed to how much gasoline they 
might buy. I believe that, potentially, that is an option that 
other States might pursue. It might be an option that this 
committee might consider studying.
    I would ask, as well, that the Congress work with the 
States in providing dollars so that States can investigate and 
contest some of these new options. You have State legislators 
who are willing to take risks, who are responsible for the 
infrastructure in their States, and I think stand ready to work 
together cooperatively to address this issue. It is the number 
one issue that we need to address in transportation, long-term 
funding.
    Mr. Varga. Chairman Petri, you know it is really all about 
mobility. All transportation modes are about mobility, moving 
people, goods, everywhere. So we are concerned that the funds 
are diminishing.
    I am from Michigan. The State legislature is debating 
various issues on how to move their agenda forward because of 
the shortfall of funds in the State. I think it is going to be 
comparable at the Federal level. There are many items that are 
going to be put on the table. And what I would encourage is 
that all of our partners in transportation work with the 
committee to investigate all possible options so we come up 
with the best possible solution. Although we don't have any 
significant main priorities right now, the issue is to have a 
short-term and a long-term view as to how we will raise the 
money.
    We know what the short-term possibilities are, you know, 
with gas tax and all that. But I think long term, we are going 
to have to look at all kinds of different options in terms of 
dealing with the mobility solution. We stand ready to work on 
all of the transportation problems to solve all of the mobility 
needs that we are engaged in.
    Mr. Perrin. Mr. Chairman, I think I would echo some of the 
other individuals at the table in saying that this is obviously 
the single largest issue that we need to address. But I think 
there is a bit more to this than just going out and saying, 
``We need more funds.''
    When I give presentations, I show a picture of a Starbucks 
cup of coffee, and I say--you know, it's the largest one, and I 
say, ``This is--this costs about $2.35. This is the average 
motorist's weekly contribution to the Highway Trust Fund.'' I 
then take that picture and turn it into an iPad, and I say, 
``Nobody needed iPads until Apple told them they did.'' We have 
needed roads and bridges for hundreds of years, centuries. Our 
problem is that we don't sell our product well enough. We have 
a great product. We move people and goods to jobs, to day care, 
to education. It is absolutely imperative and critical, what we 
do. This is the largest issue that we have to address.
    Both of the commissions that came out of SAFETEA-LU said 
the same thing. In the immediate term, an increase in the gas 
tax is something that has got to be fully considered. We agree 
with Chairman Shuster; all options have to be on the table.
    But ultimately, we are not going to have a complementary 
energy and transportation policy if we are saying, ``Drive more 
fuel-efficient vehicles, reduce our dependence on foreign 
oil,'' yet that is going to be our primary source for funding 
Federal transportation investments. So it is not a simple 
question, it is a difficult task that this committee and 
Congress are charged with. It is times like these I am glad I 
am on this side of the table.
    But, ultimately, AMPO is here, we are ready to discuss 
these issues, provide our input. It is not just about what is 
happening in 50 States and the District and some territories. 
It is about individual metropolitan areas. It will only work if 
people see a result and see a positive benefit for what their 
funds, their hard-earned funds, are going to. And at the same 
time that they are tightening their belts, we have to tighten 
ours. And I think that is why these performance management 
requirements of MAP-21 are so absolutely critical.
    Again, as I said, we can discuss achievements, but we can 
also discuss additional needs on what we could be able to 
effectively purchase with their dollars if we invest them as 
wisely as possible and had some additional funds to work with.
    Mr. Bobrowski. Mr. Chairman, I can tell you in the State of 
Tennessee, we have a backlog of about $10 billion worth of 
transportation projects. And our effective annual budget to 
deal with those problems is about $500 million. So everybody 
can do the math. Obviously, there is just not enough money to 
really deal with the projects that we have got, not to mention 
that we cannot add any new projects to that list because it is 
simply ridiculous to add a new project to a list that is 
already vastly underfunded.
    As vehicle miles traveled goes down in our State, and we 
are dependent on the gas tax for our primary source of revenue, 
the situation is going to be exacerbated over time.
    So, we are doing all that we can, and I am speaking for our 
Tennessee Department of Transportation. We don't, at the 
development district, have anything to do with fiscal policy. 
But we have inside knowledge about what is going on down there. 
So it really is getting to a critical point in Tennessee, as it 
is in other areas.
    Mr. Reiskin. Mr. Chairman, I would concur with the other 
panelists. I think if we are going to have a strong 
transportation system that is suitable to the needs of the 
American economy, we need to resource it adequately.
    I concur also that we really need all options to be on the 
table. The Bay Area's metropolitan planning organization, the 
MTC, recently made a recommendation for a percentage-based fuel 
tax. And I believe they included a recommendation for floors 
and caps, such that when revenues were strong, excess revenues 
would flow to the general fund. And when they were below the 
floor, that the general fund would subsidize. So more of a two-
way street between the trust fund and the general fund.
    I also think that the usage-based fees, such as Oregon is 
looking at, has a much stronger policy basis to support it. And 
I concur with the idea of supporting States and metropolitan 
areas and local jurisdictions and experimenting with different 
ways to better tie usage to the funding of the transportation 
system.
    Mr. Petri. Thank you. Mr. DeFazio.
    Mr. DeFazio. Thank you, Mr. Chairman. Mr. Perrin, actually, 
you know, one point you made was very good, which is not only 
haven't we increased the gas tax, but as cars become more 
efficient, and vehicle miles traveled can actually go up, 
impact on the system goes up, but revenues go down. That is why 
I propose that we should index the existing gas tax to both 
fleet fuel economy average and a construction cost inflation, 
and then project those revenues, issue bonds, and backfill the 
trust fund.
    I mean the bottom line is if we adopted the Chamber of 
Commerce position, and raised the gas tax a nickel, that 
wouldn't solve the problem in 2015. That would mean that 
instead of going to $100 million Federal investment in our 
highways and bridges, we would be somewhere around $8 million 
or $9 million. But that is still dramatic--so we need something 
more immediate to heal the trust fund.
    I would just like--I mean I think the Ryan budget reflects 
reality, which is the fact that if we don't do something, if 
Congress doesn't do something, in 2015 Federal investment in 
highways, roads, bridges, goes from $40.3 billion to $100 
million. That is a national number, $100 million.
    Senator Starr, if we shared that under the formula in 
Oregon, we would get $1.23 million from the Federal Government. 
This year we are getting $483 million. What kind of impact 
would that have on our programs, a reduction of $481 or $482 
million? Think you could make that up real easily?
    Mr. Starr. Yes. Mr. Chair, Congressman DeFazio, as you 
know, that would put a huge dent in our construction process. 
There is no doubt----
    Mr. DeFazio. Or maybe a giant hole.
    Mr. Starr. Yes, exactly.
    Mr. DeFazio. Right. And then transit, you know, on the 
transit side, we are looking at going to only a reduction from 
$9.6 billion to $1 billion. So that would only be, you know, 
about 90 percent, 80-some-odd percent reduction. How would that 
impact transit operators?
    Mr. Varga. Chairman DeFazio, I mean, it would cripple us 
slowly over the future. Our transit system is in a state of 
extremely good repair. We will be in total disrepair. We won't 
be able to meet the objectives of the folks that support us 
with property tax revenues and other revenues. And it is 
unconscionable because we will have the funds to operate 
services, but we are not going to be able to provide them. And 
I think that has--you know, you have to look at how you are 
going to address all these mobility needs over time without 
crippling the agencies who are trying to make it work.
    Mr. DeFazio. And San Francisco?
    Mr. Reiskin. Yes, Mr. Chairman. In San Francisco, more than 
30 percent of the trips taken each day are on transit. And a 
significant portion of the capital support for transit comes 
from the Federal Government. So with cuts at the levels that 
you had suggested we would not be able to maintain our systems 
in a state of good repair. We would not be able to safely 
operate them. And, therefore, we wouldn't be able to move those 
30-plus percent of the people.
    So it would really have a crippling effect on our economy, 
and would really significantly change the quality of life in 
our city and in our region. We are very transit-dependent, we 
are very densely populated. And there is no way that we could 
safely operate our systems and attract people to them with 
funding levels such as those you suggested.
    Mr. DeFazio. All right. And, Mr. Lewis, I have an estimate 
from an outside group, we haven't had a chance to vet it yet, 
but it said if Rhode Island wanted to make up the deficit of 
loss of Federal funds, they would have to raise both the gas 
and diesel tax by $.25 a gallon. Do you think that is a viable 
option for you?
    Mr. Lewis. The other alternative might be to join 
Massachusetts or Connecticut and, you know, eliminate the State 
borders.
    [Laughter.]
    Mr. Lewis. For a small State like Rhode Island, and some of 
the rural Western States, the economy is such that it just 
doesn't have the economic base to produce enough funding to 
replace the reliance on the Federal program. And, we are taking 
steps locally to prepare for change, and to bring more to the 
table locally, but we could never fill the loss that would come 
from the Federal program.
    Our construction program would virtually screech to a halt. 
And, in the Northeast we have some of the worst bridge 
condition in the country, due to its age, due to the climate, 
and due to investment.
    So, it would be devastating. And I think that is true at 
different levels all across the country. Forty percent, on 
average, of the highway programs is dependent upon the Federal 
Highway Trust Fund across the country. So this would be, as you 
said, an enormous hole in the program.
    Mr. DeFazio. OK, thank you, Mr. Chairman. Thank you.
    I would just ask that each of you who represent 
organizations take back my idea, look at it--if you got other 
ideas--but you know, looking at the indexation and bonding 
approach to take care of both immediate and some longer term 
problems. Wouldn't solve everything, and I agree with those who 
say at some point we are going to have to move toward vehicle 
miles traveled.
    But Oregon is now doing a more representative sample or 
experiment or pilot. The first one, as I say to people--people 
say, ``Well, it worked pretty well, didn't it?''
    I say, ``Well, that was Earl Blumenauer's district, and the 
people who live there are happy to have the Government know 
where they are every moment of the day at all times. And a lot 
of people in my district, not so much.'' So we have some issues 
to work out yet on vehicle miles traveled. Thank you, Mr. 
Chairman.
    Mr. Petri. Mr. Duncan.
    Mr. Duncan. Thank you, Mr. Chairman. Yesterday, at the 
tail--at the end of a hearing that I chaired, I said I think 
that our three biggest challenges on transportation projects 
overall are--number one, of course, is funding that most of you 
have mentioned.
    Number two is this great need to speed up the projects. Two 
of the most recent Federal highway studies have said that the 
average highway projects take--one study said 13 years, one 
said 15 years from conception to completion. Obviously, if we 
could cut that in half, we could do a lot more with less, or 
double the number of projects.
    And, number three, how do we balance our limited resources? 
Because you have got many big cities that--especially in the 
Northeast and Midwest that are losing population. You have to--
have aging infrastructures, and they need help. You have got 
fast-growing areas like my home area and a lot of places in the 
Southeast that, because of their rapid growth, they need a lot 
of help. And also the--a lot of the small towns and rural areas 
can't be left out because they--some of them are economically 
depressed and need help and have a lot of needs also.
    But I am--Mr. Lewis, this is my 25th year on this 
committee, and we have been talking about environmental 
streamlining all through those years. I think we went further 
in MAP-21 than we have ever done before by saying that a lot of 
these Federal agencies had to do studies concurrently, and we 
put limits with fines and so forth. Do you see progress being 
made from these Federal agencies? And do you have hope that we 
will see more progress than we have seen in the past?
    Mr. Lewis. Congressman, I absolutely do see progress, and I 
absolutely do have hope that we will be able to streamline the 
project delivery process and timelines. I think working very 
closely with Administrator Victor Mendez of the Federal Highway 
Administration and his program of Every Day Counts really 
speaks to the emphasis that U.S. DOT, and the Federal Highway 
Administration, in particular, are putting on streamlining the 
project delivery process.
    We in Rhode Island just went through a recent environmental 
re-evaluation. And the responsiveness of the Federal Highway 
Administration to the time commitment was exemplary. Just this 
week we have got a revised record decision on a process that, 
in my past life, might have taken years to produce. So I think 
we, at the State level, at AASHTO, absolutely see this as a 
critical step forward. We see that the U.S. DOT is committed to 
helping us with that. And I have a very positive outlook that 
we are going to make real progress.
    Mr. Duncan. Well, good. I remember when I chaired the 
Aviation Subcommittee, the Atlanta Airport testified that their 
newest runway, which is several years old now, took 14 years 
from conception to completion for a runway, and took 99 
construction days that they did in thirty-three 24-hour days, 
they were so relieved to get all the approvals.
    Senator Starr, you mentioned your vehicle miles traveled. 
And I am very interested in that. Specifically, what have you 
done? How far along? Is it just being done in a few places, 
or--Congressman DeFazio mentioned the opposition from people in 
his district and the supporting Congressman Blumenauer's 
district. I would like to hear a little bit more about that.
    Mr. Starr. Very good. Thank you, Mr. Chair. The Road User 
Fee Task Force was created in 2001 through a bill that I 
introduced. I chaired that task force. That task force then put 
together our first pilot program, which Mr. DeFazio referenced, 
that mandated a particular device in vehicles. It was a test, 
it was a pilot. And ultimately, it proved effective.
    We have gone since then to a different system, what we call 
an open system, where we--we have just accomplished another 
pilot that concluded at the end of January. And it was actually 
the--our second pilot included individuals from the State of 
Washington and individuals from the State of Nevada. And folks 
could choose from a menu of options of how they wanted to have 
their miles recorded. And from a very high-tech device that 
basically did identify where folks were driving and at what 
times to a very low-tech opportunity of paying a flat fee, 
where they didn't have any technology necessarily at all. That 
program is the one that ultimately, I think, is the future.
    We partnered with the private sector, rather than having 
Government mandate, or the State of Oregon mandate a particular 
technology. Ultimately, I believe that----
    Mr. Duncan. You mean the low-tech one is the future? Is 
that the one most people chose?
    Mr. Starr. No, actually----
    Mr. Duncan. Or they----
    Mr. Starr. Actually, folks chose all across the board.
    Mr. Duncan. Oh.
    Mr. Starr. But the opportunity for us to partner with the 
private sector to divide--to develop the technology, where it 
is not Government that is mandating a particular device. I see 
a future where, in the time of vehicles that have a significant 
amount of technology already included in the vehicle, you have 
individuals that are driving with smartphones in their car that 
is linked to the vehicle, where there is an opportunity for the 
private sector to collect the data that is necessary and 
actually collect and remit the fee, rather than creating a huge 
bureaucracy in Government, which is one of the challenges that 
we would face in this type of situation.
    Mr. Duncan. I am sorry, my time is up. Thank you. Thank 
you, Mr. Chairman.
    Mr. Petri. Thank you. Representative Johnson.
    Ms. Johnson of Texas. Thank you very much, and let me 
express my appreciation for the hearing and for the witnesses. 
I have been listening for the information we can use to fund 
these many infrastructure needs that we have. We hear a lot 
about the problems and not a lot about where we get the money.
    Also recently have seen the ads not to increase gas tax. So 
I would like each of you to comment more specifically on what 
you would suggest we do to find the funds to deal with the 
Nation's infrastructure problems.
    Mr. Lewis. Congressman Johnson, I think, as many of us 
mentioned, there is a finite list of options that have been 
raised by national commissions, State commissions, and blue-
ribbon panels that have looked into the challenge of raising 
revenue sufficient to meet the Nation's needs in 
transportation. And the options range from the existing system, 
the gas and the diesel fuel tax--are there modifications to 
that, or are there increases to that that are viable?
    Long term, many of us have mentioned the potential of a 
true user-based fee that may be a vehicle miles traveled tax. 
There are other methods that I think that can be explored that 
could raise the necessary revenues. And it is a combination of 
revenues at the Federal, State, and local levels. I don't think 
there is a one-size-fits-all solution. But we stand ready to 
work with you, work with the committee, and work with all of 
our partners to come up with a menu of options that is 
achievable and meets the objectives of raising the revenues 
that are needed.
    Mr. Starr. Thank you for the question, Congressman Johnson. 
In the short term, I don't know how you get away from 
addressing the shortfall outside of the fuel tax. But in the 
long term you have to move--transition away from a tax that is 
based on the use of fuel to something else. And I believe it is 
a road user charge situation where folks that use the system 
pay for it. The user fee principle, I think, is an important 
one.
    In the midterm, I would ask for a partnership between the 
Federal Government and the States to help support States' 
testing pilot programs.
    Mr. Varga. Representative Johnson, you know, I would like 
to start by saying that the public, the people, really 
understand the issues. Last year, 80 percent of transit tax 
measures locally in the United States were passed under 
difficult circumstances. So the question is, how do you bring 
something forward to the people so they understand that the 
problem has to be solved, and that you have worked out a 
solution?
    And I agree with Mr. Starr, you know, you have to start 
somewhere, but you eventually are going to have to figure out 
different options for paying for what is needed out there in 
the communities.
    But I will emphasize, I think the voters know the problem, 
I think you have to bring something to them that solves what 
they need in life, which is mobility for everybody.
    Mr. Perrin. Representative Johnson, I mean I think we have 
heard--and I would say maybe in a little disagreement with my 
colleague to my right--that I am not sure people understand the 
issue. They may see it--if there is needed cuts, they may see 
it when a bridge closes. But right now I don't think people 
understand the impending crisis that is coming. Transportation 
is not on the top of their list. Any Pew Center poll you see, 
it is not up there.
    So, the question is, should it be up there? I mean we all 
know that these things need to be done. But ultimately, it is 
those voters who decide, and they decide with--where they 
decide to live and what they decide to do. So, I think it is a 
very challenging issue.
    I think ultimately, though, the vehicle miles traveled tax 
or fee charged, whatever you want to call it, still has some 
things to be worked out. Oregon is clearly far, far ahead of 
most places. One of the issues that has to be considered is how 
easily is it basically gotten around. I mean that is one of the 
beauties of the fuel tax. It is paid for at the pump--actually, 
pre-paid for by the time you fill up.
    As one of my colleagues says, my peer in Little Rock, 
Arkansas, the implementability of the vehicle miles traveled 
tax will be there when Hell's Angels and other motorcycle gangs 
let you put those on their bikes. Until then, there is going to 
be people looking to get around this, and they are going to be 
able to find a way to do it, even as the technology advances.
    So, I think it is what everybody--what I would like to 
think everybody up here is saying, which is let's start with 
the immediate options that we have available. Ranking Member 
DeFazio put one in there where, you know, as far as balancing 
it out, you know, make hay when the sun shines. When it is 
working, let's go with it, and let's have it backfilled for 
when things are in a more difficult place. But eventually, we 
have to get to something that, along with being able to be 
implemented, is also a fair and equitable way to charge for 
uses of our roads and our transit systems. And that is 
ultimately going to depend on how much you drive, what type of 
vehicle you have that does what type of wear and tear on the 
roads, and how far you want to go when you use a particular 
public transportation system. Thank you.
    Mr. Bobrowski. Thank you. Representative Johnson, I work 
for exclusively local governments. So my area of knowledge and 
expertise as it relates to your question is very limited. So I 
am just going to pass.
    Ms. Johnson of Texas. That is not an excuse; I don't accept 
that.
    Mr. Bobrowski. Pardon me?
    Ms. Johnson of Texas. I don't accept your response. If you 
are with the local government, you know exactly where money 
comes from and how it is used.
    Mr. Reiskin. Congresswoman Johnson, I also believe that, in 
the short term, something based on the current system, whether 
it is indexing the current fuel tax or switching to a 
percentage, a sales tax approach, I think is probably the most 
practical. In the longer term, I think shifting towards more of 
a user-based system would make more sense, from a policy 
perspective. But as people have said, there are issues to be 
worked out there.
    I don't presume to understand voter sentiment that well. 
But as Mr. Varga said, there have been a number of 
transportation revenue measures at the State and local level in 
the last few years that have done very well, including in 
California, where generally we have a two-thirds threshold for 
voter approval.
    And while I know that the gas tax, or increases in the gas 
tax, whether a one-time or through indexing, tend to be thought 
of as not popular, I would just note that when you look around 
our cities and towns, from gas station to gas station and from 
day to day, prices vary quite considerably. And the demand 
doesn't respond very much to some of these price swings. So I 
think with the right kind of education, understanding of the 
state of our Nation's infrastructure, its importance to the 
economy, I think it would be possible to build support for a 
more rational short-term basis for funding the trust fund.
    Ms. Johnson of Texas. Thank you very much. I know my time 
has expired, but let me just say that we know that whatever we 
can come up with, we will need all of you, your input and your 
support, to help us educate the public and educate us here, so 
that we can take some tough stands, as well. Thank you.
    Mr. Petri. Thank you. Mr. Bucshon.
    Dr. Bucshon. Thank you, Mr. Chairman. I would like to make 
a couple of comments first. And I agree with Mr. Perrin, that 
we have not sold our product well. When I talk to people in my 
district, there is a, I feel, a general lack of understanding 
even about where the gas tax money goes and what it is used 
for. And there is also, really, I think an uncertainty about 
whether the Federal Government is actually using it for what we 
say we are supposed to be using it for. And historically, there 
is some--unfortunately, some truth to that. So, we have some 
public relations work to do in convincing the American people 
that we need more money, and where that should come from to 
fund our highways.
    Mr. Reiskin just commented on the unpopularity, and there 
is a recent polling that shows that over two-thirds of the 
American people say, ``Don't raise the Federal gas tax, even if 
it means that it goes to infrastructure.'' And I think that 
relates to their lack of confidence in the Federal Government's 
ability to actually use it for infrastructure. I really do.
    So, in my district, at least, I tell people exactly what 
the deficits are and what we need to do to fix that. That is my 
first comment.
    Also, as everyone knows, recently and historically we have 
used the--you know, the user fee, the gas tax, as well as some 
general fund money to keep the level of funding where we had 
it, basically, in the last 4 or 5 years. But as Congress 
continues to fail to address, really, the long-term drivers of 
our Federal debt and deficit--you know, the 60 percent of the 
pie chart that is mandatory spending--discretionary spending 
programs across the board, including transportation, are going 
to continue to feel the pinch.
    So--and with $17 trillion in debt, imagine what will happen 
to our spending, mandatory spending, if the interest rates go 
up. And this will continue to crowd out all other spending that 
is discretionary, including transportation. So I think we have 
a bigger--a smaller picture that is focused on funding 
transportation, but a bigger picture on how we fund everything 
that we need in our country, as it relates to all of these 
problems.
    So, my first question, Mr. Reiskin, does your bus system 
use natural--are you going to natural gas or electric power, I 
mean, in your city?
    Mr. Reiskin. Yes. So we have about 800 buses. About 300 of 
them are purely electric. They run from a overhead wire system 
that is powered by hydroelectric power, so it is very----
    Dr. Bucshon. And I have ridden on those. Those are fun to 
ride on.
    Mr. Reiskin. Very, very clean energy. All of our rail 
system, about 150 light rail vehicles, about 60 or 70 historic 
street cars and cable cars, all running on clean electric 
power. The balance of the buses, about 500 of them, we are 
shifting to B20 biodiesel hybrids. So they are hybrids that are 
running like a Prius or anything else, runs on electricity when 
it can, and then it shifts over to B20 biodiesel when it needs 
gasoline.
    Dr. Bucshon. And that is where, when we talk about where 
the funding comes from, as you see, when large cities convert 
over from gasoline powered engines or even diesel engines, you 
know, we are going to lose even more revenue, not to mention 
the fact that they are more fuel efficient.
    Mr. Lewis, I--when I talk to Indiana--I am from Indiana--
the Indiana Department of Transportation, they have expressed 
some frustration with how long it is taking Federal DOT to 
implement these--some of the regulatory changes in MAP-21. Is 
AASHTO hearing that from DOTs around the country?
    Mr. Lewis. I think there is, Congressman, some frustration. 
I was with Mike Cline, my counterpart in Indiana, just a week 
or so ago and we had a good discussion on some of the 
challenges. And I think there is progress to be made. I think 
that we still have a challenge. But I do believe that the U.S. 
DOT is working with the States on improving the flow, so we can 
do more review concurrently.
    I think there is more work to be done on the Federal 
resource agencies so that not just within the U.S. Department 
of Transportation, but within the other Federal permitting 
agencies, that we can work more collaboratively. But that is 
true on the State level, as well. And so, it is a challenge, 
but I do believe the hearts and minds are in the right place, 
and we are moving forward.
    Dr. Bucshon. That is good to know. This question will be 
for Mr. Perrin and Mr. Bobrowski. When it comes to MPOs or the 
RTPOs, in my State we have had some--you know, there is a 
Federal highway project that goes multistate, multicountry. And 
there were some issues relating to local MPOs and that type of 
thing, and their ability to include or not include this project 
in their TIP. And how do you see--you know, I agree with local 
control.
    I think local people have to have some say in this process. 
But when you have a disagreement between a local organization 
maybe and the Federal Government, how do you see that 
interaction--how do you see us solving that dispute?
    Mr. Perrin. I am familiar with the project that you are 
referring to, and I believe that got resolved by Governor 
Daniels standing--stepping in and deciding he will just do it 
with State money, or something along those lines, to----
    Dr. Bucshon. Actually, it subsequently got reapproved by 
the MPO, so----
    Mr. Perrin. Yes. I have 24 voting board members 
representing local, regional, and State interests. In an era of 
limited funding like this, I generally know I am doing a good 
job if everybody is equally upset with me. I mean that is just 
a function of what we are dealing----
    Dr. Bucshon. We have got that same issue here.
    [Laughter.]
    Mr. Perrin. So that is the issue we are dealing with. I 
think, though, that the example you have given is few and far 
between. I think generally, you know, MPOs are not solely to 
represent local governments. They are there as a cooperative 
body, and that is their function. It is important to note that 
when it comes to Federal funding, the largest owners, 
maintainers, and operators of highway infrastructure are State 
departments of transportation. I view our State DOT as just as 
important a customer as anybody else, and it is about finding 
that balance.
    I don't have a short answer to your question. The best I 
can say is we haven't had an instance like that, and I haven't 
heard of another one outside of Indiana. But I don't imagine 
that it will be in any way, shape, or form unique going 
forward, as communities look at reinventing and re-purposing 
the transportation system. And where there are interstates and 
they go through neighborhoods, you are going to have 
discussions. We saw those years ago in New York with Robert 
Moses and Jane Jacobs, as he sought to build an empire. So--
thank you.
    Dr. Bucshon. Thank you.
    Mr. Petri. Thank you. I just----
    Dr. Bucshon. My time has expired, so----
    Mr. Petri. Yes.
    Mr. Perrin. Thank you.
    Dr. Bucshon [continuing]. I yield back.
    Mr. Petri. Thank you. Mr. Michaud?
    Mr. Michaud. Thank you very much, Mr. Chairman. This one is 
for Mr. Varga.
    You know, I appreciate your testimony on the well-
established precedent of using CMAQ funds for transit projects. 
I was particularly interested in your concern regarding FTA's 
lack of guidance and refusal to release funds for approved 
grants. Have you communicated these concerns with--well, to 
FTA? And, if so, what was their response?
    Mr. Varga. We have communicated the concerns about CMAQ 
funding. We are not entirely sure where this is going. But what 
we are concerned about is the funds that were under CMAQ under 
the old authorization bill, that they should be moving forward 
as of the old bill, because that was what was intended at the 
time. And so the new guidance may change things, but funds that 
were actually allocated under the old authorization bill should 
move forward so that those entities can make those projects 
work.
    Mr. Michaud. Yes. Have you gotten any response from FTA?
    Mr. Varga. I am sure at some point we will. I don't have it 
on hand yet, but when I do we will be able to communicate that 
to you, sir.
    Mr. Michaud. OK, thank you. As you know, in Maine the 
Amtrak Downeaster has relied on the CMAQ funds for operating 
assistance since 2001. And, as you know, under Section 1113 of 
MAP-21 included language that stated CMAQ funds could be used 
for operating assistance. Now I understand that FTA may 
interpret the law differently and restrict States' ability to 
continue to use the CMAQ funds for facilities such as 
Downeaster.
    In your opinion, looking at the language, is there anything 
in the new law that would justify an FTA interpretation to 
restrict the use of CMAQ funds for the Downeaster or similar 
projects?
    Mr. Varga. From my reading I don't see that, sir. But I 
think that that is information that we can get back to you. 
What our concern really is is the funds that were appropriated 
under the old authorization bill clearly expressed that that 
could be done, and that is what we would like to see happen 
then.
    Mr. Michaud. Great, thank you. No further questions, Mr. 
Chairman, so I yield back the balance of my time.
    Mr. Petri. Thank you. Mr. Farenthold?
    Mr. Farenthold. Thank you very much, Mr. Chairman.
    Senator Starr, I would like to start with you. The Texas 
Legislature is currently hearing a bill that will give the 
Texas Department of Transportation authority to oversee the 
NEPA process. Is your State or any other States you are aware 
of seeking NEPA delegation? And can you tell me any thoughts 
you have on that?
    Mr. Starr. I don't know. Thank you for the question. I 
don't know of any other State that is pursuing that similar 
legislation, and I don't believe that NCSL, as a conference, 
has a policy that particularly addresses that issue.
    Mr. Farenthold. Mr. Lewis, do you have any other 
information on that?
    Mr. Lewis. I am aware that California currently has NEPA 
responsibility--I don't know exactly how long that has been in 
effect, but California has been working under a delegation of 
NEPA.
    Mr. Farenthold. Well, hopefully Texas can do it better than 
the Federal Government.
    Mr. Perrin, let's talk a little bit about the metropolitan 
planning organizations. MAP-21 carries the distribution 
percentages each State received in 2009. And these numbers were 
based on the 2000 census. As a result, fast-growing States like 
Texas, Arizona, and North Carolina end up big losers, while 
States with more stagnant population growth like New York, 
Michigan, and Illinois were the big winners, as well as the 
minimum allocation States like Vermont, Montana, and Wyoming.
    For example, one MPO, Burlington, Vermont, has an urbanized 
population of 108,740. For fiscal year 2013, Vermont gets just 
over $2 million. And now CAMPO, which is the Austin, Texas 
planning organization, has an urbanized population of 1,362,416 
people. That is 12.5 times the population of Vermont. And the 
metro planning funds that they received in Austin for fiscal 
year 2013 was $1,906,022, which is $100,000 less than Vermont. 
You think there needs to be a fix there?
    Mr. Perrin. I don't know that AMPO has looked at 
specifically what the distribution is at the Federal level.
    Now, it is important to note that the States distribute 
those metropolitan planning funds, both the FHWA metropolitan 
planning and the FTA Section 5303 metropolitan planning funds, 
based on formulas that are more or less decided at the State 
level. Clearly, though, I think anything you--I mean I am a 
planner. I don't want to use 2000 census data, I want to use 
2010 census data. To the degree that it is even more reliable, 
I want to use the American Community Survey estimates from up 
to 2009, 2010. So I think that is really a function of how does 
it get distributed to the States, and that is something that 
Congress does.
    Mr. Farenthold. All right. And let's talk a little bit 
about performance data. One of the things we are kicking off in 
Texas now is TEXDOT, our department of transportation, is 
working with the State association of MPOs to coordinate and 
share information regarding the national performance management 
process.
    Rather than waiting for rulemaking, we are getting a go on 
that. What is your organization doing to prepare to get that 
information?
    Mr. Perrin. I think AMPO has obviously been very clear 
about what they want to see, and that is not prescriptive 
Federal regulation from U.S. DOT about how this needs to 
happen.
    But I think you are absolutely right. In New York we have a 
New York State association of MPOs. We have an integrated 
planning initiative. And we have jumped right into this and 
said, ``What is the data we are going to need?'' Regardless of 
what comes down from Washington, when it gets to us and our 13 
MPOs, what is the data we are going to need? How do we get that 
most cost-effectively? Does it really make sense for the 13 of 
us to be purchasing employment projections separately, or is 
this something we can do through the New York State DOT?
    So that is really the critical part, is how do we do this 
to save money.
    Mr. Farenthold. All right. Mr. Lewis, I want to get to 
TIFIA for a second. You know, MAP-21 substantially expanded the 
TIFIA program. And I was wondering if you all could--Mr. Lewis 
or anybody--could give me some information particularly on how 
this is working with respect to rural areas. Are we seeing 
TIFIA help rural areas as much as we are urban areas?
    Mr. Lewis. I don't have the specifics on that, Congressman. 
But we see it from the States' perspective as a very important 
tool in the toolbox for advancing our goals in transportation. 
It is not a solution.
    Mr. Farenthold. And, you know, Texas now has, I think, four 
TIFIA letters of interest, but we are really finding that it is 
pretty slow-going. Is that consistent with the rest of your 
organization of not getting fast-enough response on that?
    Mr. Lewis. Congressman, I will work with the staff and get 
you an answer on that, poll the States to determine what their 
experiences are in terms of TIFIA----
    Mr. Farenthold. I would appreciate it. We have got these 
alternatives out there that I think the--never forget the time 
value of money. The sooner we can get these things going, the 
better we are.
    I see my time has expired now. Thank you, Mr. Chairman.
    Mr. Petri. Thank you. Ms. Hahn?
    Ms. Hahn. Thank you, Mr. Chairman. I represent Los Angeles. 
And we, as I think most counties and cities in this country, 
are beginning to realize that we can't totally depend on the 
Federal Government for investment in our transportation 
infrastructure, although I do think the Federal Government has 
a role to play in investing in this Nation's infrastructure. I 
think it absolutely makes for a more seamless system in this 
country, as well as leading to jobs in the economy.
    But--so we in Los Angeles passed, with a two-thirds vote 
requirement, Measure R in L.A. County, which was a half-cent 
sales tax, and raised $40 billion. Originally it was $40 
billion that would be used over the course of 30 years. But 
Mayor Villaraigosa came up with the idea of 30/10, and asking 
the Federal Government if they would consider front-loading 
that money in the first 10 years of the tax measure, and then 
we would pay back the Federal Government over the course of 30 
years. It seems like it would make a great--it made great 
sense. Front-load the projects, get the economy going, build 
the system.
    And so, that sort of morphed into America Fast Forward, 
where, you know, cities and counties across this country could 
leverage local dollars with the Federal Government's ability to 
front-load those initiatives with tax--with bonds and tax 
credits.
    So, now, one of the new ideas the advocates of America Fast 
Forward want to push for qualified transportation improvement 
bonds, QTIB--not to be confused with Q-Tip--which would have 
the Federal Government subsidize most or all of the long-term 
borrowing cost for investors in large-scale transportation 
projects.
    So, I am just going to ask those of you on the panel. How 
helpful would a new class of tax credit bonds for 
transportation similar to these Build America bonds be for 
local and State governments? Is that something we should 
pursue?
    Mr. Reiskin. Congresswoman, from our perspective I think it 
would be extremely helpful. As I mentioned, we have a half-cent 
sales tax in San Francisco. We are about 10 years into a 30-
year authorization. But we have ourselves advanced a lot of 
that value at a much higher cost than we would be able to 
under, say, a QTIB kind of process. So we are now looking at--
in addition to going to the voters next year for a possible 
general obligation bond, going in the next few years for a 
reauthorization and possible expansion of the sales tax. The 
ability to capitalize those revenues with credit support or 
other kind of low-interest financing from the Federal 
Government would certainly help invest dollars now that would 
save us costs down the road.
    With--before I was in this job I was the public works 
director in San Francisco. And what I learned there is that as 
you delay expenditures over time, the cost of bringing things 
back into a state of good repair get exponentially more 
expensive. So being able to borrow forward with low-interest 
money to invest now cannot only improve today's infrastructure, 
but can save money in the long term. So I think it would be 
extremely helpful.
    Mr. Lewis. Congressman, I think, as I mentioned earlier, it 
is a potential tool in the toolbox. From the States' 
perspective, as you may know, the GARVEE bonds are a program 
that the States can borrow to advance work to get it done more 
quickly, and Rhode Island has taken advantage of that. But we 
are pledging our future Federal revenues to pay off those 
bonds. And with the uncertainty in future Federal revenues, 
that makes this a more risky proposition.
    And so, I think that any opportunity that we can add to the 
toolbox is helpful. But it can't replace the funding needs that 
we have at a national level.
    Mr. Starr. And State legislatures as well, I think, look at 
the wide variety of opportunities to address these issues. And 
bonding borrowing is one of those tools. And in a way I think 
we have positions supporting bonding in our policy statements. 
So we would support this, as well.
    Mr. Varga. You know, in Grand Rapids right now we don't see 
it as a tool that we could use, but I could see how, in the 
future, it might be. And I agree with Mr. Reiskin's statement, 
that this is something that they find useful, and I think the 
opportunities for leveraging funds that way do save money. And 
so I would encourage any institutions that really want to 
pursue it to have that available.
    Mr. Perrin. I would just agree with, basically, Mr. Lewis's 
comment and Senator Starr's, which is it is something else that 
is available to us. And the wider range of options, the more 
diversified portfolio we can have to tap into, is always going 
to be a benefit.
    Mr. Bobrowski. I would agree with the rest of the panel. I 
mean that is--you know, in Tennessee, again, we need all the 
help that we can get, in terms of funding.
    Ms. Hahn. Thanks. Well, my time is up, but again, I think 
some of the comments that transportation is not on the front 
burner for the general public, we have not found that to be 
true. Of course, I think Los Angeles was just named the worst 
city for traffic in the country.
    But I think my history in Los Angeles has been the voters 
will continue to tax themselves if they know that the money is 
going directly to projects which will benefit their daily 
commutes on the freeways, the highways. And we understand in 
Los Angeles the idea of goods movement, so we get the idea of 
good bridges and overpasses and roads and truck expressways. 
So--but we found that over and over. If the voters understand 
the purpose for which the tax is going, they will, again and 
again, be willing to cough up the money to pay for a better 
transportation system. Thank you.
    Mr. Petri. Thank you. Mr. Rice.
    Mr. Rice. Thank you. Thank you, members of the committee, 
for allowing me to participate. Thank you, witnesses, for 
coming all this way to educate us. And I certainly learned a 
lot. I appreciate your perspective.
    I agree that funding is the biggest issue that we face. And 
we have a real need--I think that infrastructure drives 
American competitiveness, worldwide. Our competitors for jobs 
across the world are advancing, I believe, at a much faster 
pace than we are. I think that a lot of that is due to 
regulation, and these MAP-21 restrictions are certainly going 
to help.
    But in terms of funding, I think--Mr. Perrin, you said 
earlier that people are tightening their belts, and they want 
to see us tighten ours, too. And the unfortunate truth is that 
the Federal Government's budget has grown by about 29 percent 
in the last 5 years.
    Mr. Starr, in Oregon has your budget grown by 29 percent in 
the last 5 years?
    Mr. Starr. No, sir, it has not.
    Mr. Rice. No, it hasn't. In fact, a lot of States are 
static. In fact, a lot have actually gone down. You know, we 
are spending at a massive level, running record deficit after 
record deficit.
    And unfortunately, also, at the same time, we have had a--
we had a huge tax increase at the very end of the last year to 
satisfy the fiscal cliff deal. And with the implementation of 
the largest expansion of entitlements since the sixties, with 
Obamacare, we have got another massive tax increase scheduled 
to hit January 1st of next year. It was delayed. When they 
passed it they delayed it for a few years so they didn't have 
to feel the impact. So we got two massive tax increases coming.
    I very much agree with what Ms. Hahn said, that across the 
country--in fact, in my county, back at Horry County, South 
Carolina, we adopted a local option sales tax to pay for roads. 
I think voters don't mind doing that, as she said, if they see 
that it will go directly to projects that benefit them. But the 
truth is that the Federal fuel tax doesn't all go to highways. 
We have robbed that. We have got a ports fund supposed to go to 
maintain ports, but it doesn't. We have robbed that. So I am 
not sure that, in the Federal Government's case, that the 
voters actually believe that the money goes directly to highway 
funding.
    You know, we have got a massive problem with 
infrastructure. I think it would be my absolutely top priority. 
But it is a matter of priorities. And we can't expand on every 
front and expect the voters to step up and pay for that. We got 
the biggest, as I said, expansion of entitlements with 
Obamacare hitting next year, and we got to decide what we are 
going to pursue. Are we going to pursue entitlements? Or--and 
have more people dependent on the Government, and increase 
their dependence on the Government? Or are we going to explore 
economic expansion through infrastructure, maintenance, and 
growth, and try to growth the economy.
    So, I think we have a choice that we are faced with. Right 
now, we are, unfortunately, on the path of expanding 
entitlements. I don't know that it is realistic to ask the 
people to stand for three big tax increases in 1 year. That may 
be just a little bit unrealistic.
    The MAP-21 restrictions, you know, we are working on a 
Federal highway project, trying to get permits. We have been 
working for 6 years now to try to get permits to build I-73. 
Still don't have a permit. I appreciate very much the 
restrictions that MAP-21 puts in place with a 4-year limit. My 
personal opinion is a 4-year limit is about three times as long 
as it should be. We have to balance environmental requirements, 
obviously, with the need for economic growth. But I think the 
tail is wagging the dog. When it takes 14 years to get a permit 
to dredge the port in Miami so that we can get Panama Canal 
ships in there. And if we started digging today it wouldn't 
happen.
    I think our priorities may be a little bit skewed and we 
need to do--we have got to do a better job. I think we live in 
the greatest country on earth, I don't think anybody can beat 
us. But I think we can sure beat ourselves, and we are doing a 
great job of it. We got the regulatory noose around our own 
neck and we are strangling ourselves.
    So, particularly when you got limited dollars, as we have 
here, all the money we spend on studies, all the time we waste, 
all the delays and the increased cost that we could be using to 
lay asphalt and dredge our ports and make this country more 
competitive, I think we really, really need to rethink that.
    So, I know I didn't give you any questions, it was more 
observations. I appreciate you being here. Thank you very much.
    Mr. Petri. Thank you. Mr. Barletta.
    Mr. Barletta. Thank you, Mr. Chair. Mr. Lewis, one of the 
important provisions in MAP-21 was Jason's Law, which makes 
truck parking improvements a regular expense for State DOTs and 
MPOs. I am interested in your opinion. Do you agree that, first 
of all, that adequate truck parking facilities are a critical 
safety and infrastructure investment?
    Mr. Lewis. Yes. Congressman, in different areas of the 
country it is a bigger problem than in other areas, in certain 
localities. But safety is our principal objective at the State 
transportation departments, and also within the U.S. DOT. So we 
want to look very closely at provisions that would promote safe 
travel on the highways, and that certainly includes the 
movement of heavy trucks. I can ask staff to review policies 
with regard to truck parking, and we would be glad to get back 
to you, Congressman, with a specific response to that question.
    Mr. Barletta. You know, obviously, you know, regulations 
require truckers to park their trucks after so many hours of 
driving. And Jason's Law was named after a trucker who was 
fatally shot in an abandoned gas station. So how do we 
encourage local transportation officials to ensure that this 
investment is made? When they have a buffet of what they can 
choose from, how do we communicate that to local?
    Mr. Lewis. I think that communication is key. A number of 
your colleagues have mentioned that we need to improve our 
efforts in communicating on all fronts with regard to the 
investment in transportation. And the point you raise is a 
critical issue that probably many, many people don't know is an 
issue. I think that we have an obligation to better educate so 
that it is on the table when prioritization is evaluated. At 
the local level, at the MPO level, and on the State level, we 
think that this is an important issue, and it is one that we 
need to better educate the populace.
    Mr. Barletta. I agree. Mr. Bobrowski, a driver is two-and-
a-half times more likely to die on a rural road than on an 
urban road. As local entities, how can we increase roadway 
safety infrastructure on locally owned roads to reduce 
fatalities and serious injuries?
    Mr. Bobrowski. I would go back, Congressman, to the local 
consultation process. I think there really needs to be a close 
relationship between State DOTs and the local folks in those 
communities. They know best where their problems are.
    And, you know, the communication of those problems to the 
State DOT is just a critical, critical process. And it needs to 
be something that is stable, that is supported by documented 
statistics. And, you know, I think, just given the nature of 
rural roads, that that statistic might be a little bit skewed. 
But many times we look at making large-scale expensive 
improvements four-laning a road, when really only a truck-
passing lane might do the trick to really help safety concerns.
    And so, I think the local consultation process is a key to 
kind of improving what is going on on rural roads.
    Mr. Barletta. Do you see opportunities in MAP-21 to address 
safety and effective incident management issues at both the 
State and local level for corridors that cross multiple State 
lines? I know Interstate 81, for example, goes through 
Pennsylvania, and is a----
    Mr. Bobrowski. Right.
    Mr. Barletta. And the I-81 corridor, obviously, is an 
issue.
    Mr. Bobrowski. Well, certainly, you know, I-81 is an 
interstate that passes through seven States, I believe. And I 
think there is an effort afoot to get an I-81 corridor planning 
authority established, and Tennessee is involved with Virginia 
and Pennsylvania and New York and Maryland and the rest of the 
States that are involved, or through which I-81 passes.
    So, yes, I think there are great opportunities. But, you 
know, funding is really a key issue because these are typically 
grass roots kind of organizations. They are managed at the 
local level. And I know we have a very, very sophisticated and 
effective I-95 corridor management agency. So I think where, 
you know, efforts are afoot to do that kind of thing in other 
areas of the country, I think they really need to be supported, 
at least partially, by Federal transportation dollars.
    Mr. Barletta. Yes. Safety, obviously, you know, if you 
asked everyone, they would say that is such an important issue. 
But when it comes to funding, sometimes we bypass it for other 
things.
    My family was in the road-building business and I was a 
pavement-marking contractor. We did the line painting, only the 
straight lines. But one thing that I always took pride in is 
that we never read the names in the paper of the people's lives 
we saved.
    Mr. Bobrowski. Right.
    Mr. Barletta. And I think that is something we should all 
remember when we are looking at projects and funding. Thank 
you.
    Mr. Bobrowski. Thank you.
    Mr. Petri. Thank you. Mr. Mullin.
    Mr. Mullin. Thank you, Chairman, and thank you, panel, for 
taking the time. I know you guys probably enjoy this as much as 
I do, which isn't very much, but it is a necessity for us to 
make sure that we are doing the job that is put in front of us. 
And it is an honor to do so, and it is an honor to sit in front 
of you. And so, please, as I have said before in some panels, 
don't think you are wasting your time. I think you will find 
out that in T&I we have an interest, and we can usually agree 
that we truly want to get the problems fixed. It is just things 
don't move very fast up here. And common sense, sometimes you 
can spend time butting your head against the wall, and it is 
frustrating.
    I come from a construction background, I still own a 
construction company. Have about 120-plus employees back in 
Oklahoma. And I am sitting in front of you because of the 
frustration. So I share it with you. But we still got a job to 
do. And I have a few questions I want to throw out, and I 
hopefully won't take all of our time.
    But MAP-21 included category exclusions for projects and 
right-of-ways and projects receiving less than $5 million in 
Federal funds. And that is good. But what has happened is the 
Department has yet to complete the regulations that is needed, 
and now we are past the deadline to start some of this.
    In Oklahoma, Mr. Lewis, in Oklahoma I have heard from our 
department of transportation that this delay in rulemaking is 
causing a delay in the project's implementation, has affected 
what we do. And how has it affected your State?
    Mr. Lewis. Congressman, we agree. We would like to see that 
provision move forward as quickly as possible. There is a 
rulemaking pending right now, and AASHTO is in the process of 
commenting on that, as we speak. We think this is an important 
and relatively easy change that can move projects forward more 
quickly and more expeditiously.
    Mr. Mullin. Well, for some reason it seems like we are 
dragging our feet. Are you experiencing cost delays? Are you 
experiencing--where you are having situations that the project 
should already be completed, and now it is holding up and 
putting you in a backlog?
    Mr. Lewis. Speaking from Rhode Island's perspective, we 
have had that issue in the past, but we don't have that issue 
currently affecting any of our projects right now. But I am 
aware that other States across the country are experiencing a 
greater frustration with this. I think we do need to up our 
game, and are working with the U.S. DOT, to get this matter 
moved forward.
    Mr. Mullin. Thank you. Mr. Starr, I appreciate your 
testimony on the Indian roads program. And I want to point out 
that in Oklahoma we have a very strong working relationship 
between the Oklahoma Department of Transportation and the 
tribes in my State. Because of Oklahoma's unique situation 
where we don't actually have reservations, it is important that 
the departments and the tribes have synergy on this issue.
    In your opinion, what can things--what things can be done 
to help facilitate these kinds of cooperative interactions 
across the country?
    Mr. Starr. In Oregon we have a very cooperative 
relationship with the tribes. And it is a relationship that is 
based in honoring each other as independent nations and 
fostering strong communication between our State governments 
and the tribal governments. I believe that is the crux to 
having a solid relationship with the tribes, whether it is 
dealing with transportation issues or any other issues that you 
have to deal with on a cross-government basis.
    Mr. Mullin. Right. And in my county, which is a very big 
county, I have a town of 1,200 people where I live. And we had 
a major flood 3 years ago on Easter. I mean literally moved the 
banks of some of our creeks over 100 feet, washed out all of 
our bridges, our low-water bridges. There wasn't a bridge 
around. In fact, we had to cancel school for several days, just 
because the bus routes couldn't run on some of these country 
roads. And the county just didn't have the money. The State 
didn't have the money. I mean these bridges were built by my 
granddad in the war program.
    And the tribes stepped up and started knocking these out in 
a very fast pace, faster than we could have ever got it done. 
But also, the State had the opportunity to waive a lot of the 
environmental studies and the fish and wildlife studies and all 
these NEPA programs that are out there that I know you guys 
love dealing with. But it showed that the projects can be 
completed. And people are willing to do it, but it seems like 
we keep hitting our head against the wall, because we are our 
worst enemy.
    So, we look forward, with MAP-21, working to help get this 
problem figured out, and working with you all, too. So thank 
you so much, and I appreciate your time.
    Mr. Starr. Thank you.
    Mr. Petri. Thank you. Mr. Davis.
    Mr. Davis. Thank you, Mr. Chairman. Thank you to all the 
gentlemen who came in today. And the good news is when you get 
to me it is almost over.
    [Laughter.]
    Mr. Davis. You are almost done. There is no more 
nameplates. But it is--and I won't keep you long, I promise. 
But I appreciate what you do. I think, as you have seen here 
today, the T&I Committee is the epitome of bipartisanship. 
There are no Republican bridges, Democrat bridges. We are going 
to work together. It is important. It is important to get 
beyond the party politics and talk about rebuilding this 
crumbling infrastructure that all of you have addressed so 
eloquently today and sat patiently answering all of our 
colleagues' questions.
    I have one question related to the transit issue. So 
everybody but Mr. Varga, it is over. You don't have any more. 
Mr. Varga, I am sorry. But I just want your opinion. And 
actually, Mr. Lewis, feel free to jump in on behalf of the 
departments of transportation. And our department of 
transportation, in particular in Illinois, does an excellent 
job of working together with the delegation. And I got to 
commend Ann Schneider and those that have served before her in 
doing so. And I look forward to working with her now, as a new 
Member of Congress, to move more projects forward.
    But, Mr. Varga, I want to--and if you were asked this 
earlier, I apologize. But I know the formula grant program, 
when you talk about transit for bus and bus facilities, is 
newer. Whereas before, in previous transportation 
reauthorizations like SAFETEA-LU and TEA-21, et cetera, it was 
earmarked. A lot of earmarked funding mechanisms.
    Tell me. Is the formula grant working, the process working? 
Is it easier for the decision to be made at the State level? 
And is that being--is that easier for your organizations that 
make up your association to deal with? Or was it easier when 
the Federal Government picked and choose?
    Mr. Varga. This is a very important question. I am hearing 
from a lot of different members in the association that for 
many of them it is not working because they don't know how to 
plan long term for getting the funds, because less funds are 
available than had been before MAP-21. So, for them it is how 
do you plan long term, and how do we address this issue? You 
know, we are looking forward to working with the FTA and with 
you to find a solution to that issue, because that is what I am 
hearing from my members.
    From my own perspective, in Grand Rapids we are in a state 
of very good repair. But eventually we will need to replace 
buses that we have purchased over time under the old method. 
And I think that that issue will be coming forward for us, as 
well.
    So, how to balance off multiyear needs for capital 
equipment, for transit system in the bus category, is something 
that we are going to have to look at carefully. Because I a 
hearing that from a lot of the members and we are going to have 
to work together to find some solution.
    Mr. Davis. OK. Mr. Lewis?
    Mr. Lewis. As an organization, AASHTO has supported 
formularization. But with that, some places are getting less 
than they have previously, and I think that that is a difficult 
place to be. Many transit projects--and I come from the 
Northeast area, the Boston area--are very heavily capital-
intensive. And then the operating cost of those programs is, as 
you know so well from Chicago, also very intensive.
    So, I think that from our perspective at AASHTO, we really 
need to recognize it is a balanced system of transportation. It 
is not one mode winning out over another mode, but that 
providing flexibility to the States to make those decisions is 
really where the answer is. Each locality, each State, each 
region needs to make those decisions within an overall national 
transportation system.
    Mr. Davis. Excellent. Well, again, thank you very much to 
all of you for being here today. Thanks for working with us. 
And I look forward to working with you in the future as this 
term goes along. I yield back.
    Mr. Petri. Thank you. And do you have another--Mr. DeFazio.
    Mr. DeFazio. Just one last question. Mr. Lewis, you 
referenced the operational right-of-way issue as a relatively 
simple--I am afraid it isn't, because I advocated for what I 
defined--and we had this discussion--but the final draft came 
out with a different definition--that we couldn't possibly know 
what right-of-way around this country has been acquired. How 
much of the NAFTA highway did Texas acquire for their 20-lane 
road? And how much of it do they still have? And suddenly we 
are going to exempt it from any environmental review?
    So, the intent was actual operational--you know, basically 
within the existing footprint, not any property that was 
acquired. And that is, I think, part of the problem at DOT is 
that someone, somewhere, somehow--you know, the Senate not 
being very good at drafting legislation, you know, slipped that 
in there. And so I think it is problematic. Because, I mean, I 
can't even envision--you know, we had a famous fight over the 
Mount Hood Freeway in Portland many years ago, and, I don't 
know, maybe we still got some leftover right-of-way there that 
would be exempt from any environmental review for a greenfields 
project.
    The intent--and I really push this hard--was when you are 
laying down a streetcar track in the middle of an asphalt, you 
shouldn't have to go to a--you know, through a NEPA process. I 
mean there is a net benefit. But to expand a two-lane road to 
an eight-lane road, well, I am afraid that probably needs some 
scrutiny. So I don't think it is simple.
    Mr. Lewis. No, and I am sure I could feel my--the staff 
behind me cringing when I said anything was simple. So I 
apologize for that.
    I think in certain cases it is relatively simple. But I 
think you have raised a very good point, that it is not 
universally true. And I think that the State and local reviews 
will also come into play, so by simplifying the Federal rules, 
it doesn't give carte blanche. And I think there is some local 
decisionmaking that can protect those resources.
    Mr. DeFazio. OK. Thank you. Thank you, Mr. Chairman. I 
appreciate this hearing. Thanks very much.
    Mr. Petri. Thank you. And I am informed by our staff that 
there is, in fact, strong disagreement as to what congressional 
intent was. And so there are several positions on it. And I 
just would note that for the----
    Mr. DeFazio. I was noting my intent.
    Mr. Petri. Yes. We would like to thank you all for your 
participation and that of the organizations that you represent.
    And before we adjourn, I would ask unanimous consent that 
the record of today's hearing remain open until such time as 
our witnesses have provided answers to any questions that may 
be submitted to them in writing, and unanimous consent that the 
record remain open for 15 days for additional comments and 
information submitted by Members or witnesses to be included in 
the record of today's hearing.
    [No response.]
    Mr. Petri. Without objection, so ordered. And this hearing 
is adjourned.
    [Whereupon, at 11:59 a.m., the subcommittee was adjourned.]

</pre></body></html>
